HHS/OIG-Audit--"Refugee Assistance Programs Should Be Limited to Newly-Arrived and Needy Refugees, (A-04-93-00062)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Refugee Assistance Programs Should Be Limited to Newly-Arrived and Needy Refugees," (A-04-93-00062)
May 15, 1995
Complete
Text of Report is available in PDF format (1.5 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that many of the refugees who were provided grant services under the Social Services
(SS) and Targeted Assistance (TA) programs in Florida had been in the United States more than 5 years and some were not
financially needy. This is contrary to the purpose of the Refugee Resettlement Act which is to provide refugees effective
resettlement and help them achieve economic self-sufficiency as quickly as possible. We recommended that the Administration
for Children and Families (ACF) limit the time period for refugees' participation in these programs and limit such assistance
to needy refugees. The ACF's Office of Refugee Resettlement agreed and advised us they are issuing regulations limiting
eligibility for SS and TA to 5 years and to those who meet a recognized standard of need, such as that established for
the Medicaid program. Implementation of these measures would result in an estimated annual savings of $9.1 million.